No. 19-

tbe
#puprente Court of tbe Ziniteb iptateo

JASON EDWARD RHEINSTEIN,
Petitioner,
V. -

ATTORNEY GRIEVANCE
COMMISSION OF MARYLAND,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
PETITION FOR WRIT OF CERTIORARI

JASON EDWARD RHEINSTEIN
PETITIONER PRO SE
P.O. Box 1369
SEVERNA PARK, MD 21146
(410) 340-8396
JASON@JER- CONSULTING. COM

JULY 25, 2019
SUPREME COURT PRESS

♦

(888) 958- 5705

♦

BOSTON, MASSACHUSETTS

1

QUESTION PRESENTED
Whether, once an appeal of a remand order has
been explicitly authorized by 28 U.S.C. § 1447(d), the
appellate court has jurisdiction to review the entire
order and all of the legal issues entailed in the decision to remand, as the majority of circuits to consider
the issue had previously held, or whether the appellate court's jurisdiction to review a remand order is
limited to the portion of the remand order addressing
particular issues as the Fourth Circuit held in this case.

11

PARTIES INVOLVED
The style of the case identifies the parties involved.
Petitioner Jason Edward Rheinstein is an individual
Maryland resident who is an attorney licensed to
practice law in Maryland and several other jurisdictions. Respondent Attorney Grievance Commission of
Maryland is an administrative agency in the judicial
branch of Maryland State Government, which regulates
Maryland attorneys.1

1 This case involves the removal of a state court proceeding to
federal court. In the state court proceedings, the Attorney Grievance
Commission of Maryland is the "Petitioner" and Jason Edward
Rheinstein is the "Respondent." There are documents in the Appendix from the state court proceedings. As they appear in the
Appendix documents, the term "Petitioner" refers to the Attorney
Grievance Commission of Maryland, and the term "Respondent"
refers to Jason Edward Rheinstein.

111

LIST OF PROCEEDINGS
Attorney Grievance Commission of Maryland v.
Jason Edward Rheinstein
United States District Court, Maryland
Civil Action No. 17-cv-2550
Decision Dates: September 20, 2017,
September 22, 2017
Attorney Grievance Commission of Maryland v.
Jason Edward Rheinstein
United States Court of Appeals, Fourth Circuit
Case No. 17-2127
Decision Date: February 5, 2019
Date of Order Denying Petition for Rehearing and
Rehearing en bane: March 11, 2019

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED
PARTIES INVOLVED

ii

LIST OF PROCEEDINGS

iii

TABLE OF AUTHORITIES

vii

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY PROVISION INVOLVED

2

INTRODUCTION

2

STATEMENT OF THE CASE

4

A. Overview of Case and the Discovery
Responses Leading to Petitioner's Removal
of the Case

4

B. Removal to the District Court

7

Asserted Basis for Removal Under
§ 1442(a)(1) (Federal Officer Jurisdiction)

7

Asserted Basis for Removal Under § 1441
and § 1331 (Federal Question Jurisdiction)
10
C. The Motion for Remand, the District Court's
Orders and the Fourth Circuit Appeal
12
REASONS FOR GRANTING THE WRIT
I. THERE IS A CLEAR SPLIT, AMONG THE
CIRCUITS TO HAVE CONSIDERED THE ISSUE,
AS TO WHETHER AN APPELLATE COURT MAY

14

V

TABLE OF CONTENTS — Continued
Page

REVIEW THE ENTIRE REMAND ORDER (AND
ALL THE LEGAL ISSUES ENTAILED THEREIN)
IN CASES WHERE REVIEW IS EXPLICITLY
AUTHORIZED BY 28 U.S.C. § 1447(d)
14
FOR THE REASONS STATED BY THE SEVENTH
CIRCUIT IN Lu JUNHONG, THAT DECISION
AND THE DECISIONS OF THE SIXTH AND
FIFTH CIRCUITS IN MAYS AND DECATUR
HOSPITAL, RESPECTIVELY, WERE CORRECT
WHEREAS THE DECISIONS OF THE EIGHTH
CIRCUIT IN JACKS AND THE FOURTH CIRCUIT
IN THIS CASE WERE ERRONEOUS
21
THIS CASE PRESENTS AN IDEAL VEHICLE FOR
RESOLVING A QUESTION OF EXCEPTIONAL
IMPORTANCE THAT WILL RECUR IN THE
FUTURE; A UNIFORM INTERPRETATION OF
§ 1447(d) Is NECESSARY TO ENSURE THAT
PARTIES ARE NOT TREATED DIFFERENTLY
DEPENDING UPON WHERE THE CASE IS
LITIGATED
24
CONCLUSION

26

APPENDIX TABLE OF CONTENTS
Opinion of the Fourth Circuit
(February 5, 2019)

la

Memorandum and Order Denying Emergency
Motion (September 22, 2017)
4a

vi
TABLE OF CONTENTS — Continued
Page
Memorandum and Order Re: Remand
of the District Court of Maryland
(September 20, 2017)

9a

Order Remanding Case of the District Court of
21a
Maryland (September 20, 2017)
Memorandum and Order Re: Remand
of the District Court of Maryland
(March 17, 2017)

23a

Order of the Fourth Circuit Denying Petition for
Rehearing En banc (March 11, 2019)
31a
Notice of Appeal
(September 25, 2017)

32a

Petition for Disciplinary or Remedial Action
[AGC Complaint] (February 17, 2016)
35a
AGC Answers to Rheinstein's Corrected First Set
of Interrogatories—Relevant Excerpts
(August 30, 2017)
62a
AGC Schedule A: Answers to Interrogatories and
Responses to Request for Production of
Documents—Relevant Excerpts
(August 21, 2017)
65a
Deposition of AGC Designee Marianne J. Lee
Transcript—Relevant Excerpt
(August 7, 2017)
70a

vii
TABLE OF AUTHORITIES
Page
CASES
Atty. Griev. Comm'n. v. Donnelly,
458 Md. 237 (2018)
Brill v. Countrywide Home Loans, Inc,
427 F.3d 446 (7th Cir. 2005)

6
17, 18, 23

Brockovich v. Cmty. Med. Ctrs.,
2007 U.S. Dist. LEXIS 21355
(E.D. Ca. 2007)

8

Cord v. Smith,
338 F.2d 516 (9th Cir. 1964)

12

Decatur Hosp. Auth. v. Aetna Health, Inc.,
854 F.3d 292 (5th Cir. 2017)
15, 20, 21, 23
Grable & Sons Metal Products v. Darue Eng'g.
& Mfg., 545 U.S. 308 (2005)
10, 11
In re Snyder,
472 U.S. 634 (1985)
Jacks v. Meridian Res. Co., LLC,
701 F.3d 1224 (8th Cir. 2012)

11
passim

Kakarala v. Wells Fargo Bank, NA.,
136 S.Ct. 1153 (2016) (Thomas, J.,
dissenting from the denial of certiorari)
Kircher v. Putnam Funds Trust,
547 U.S. 633 (2006)

25
passim

Kolibash v. Committee on Legal Ethics of West
Virginia Bar, 872 F.2d 571 (4th Cir. 1989)
Lu Junhong v. Boeing Co.,
792 F.3d 805 (7th Cir. 2015)

7

passim

viii
TABLE OF AUTHORITIES—Continued
Page
Mays v. City of Flint,
871 F.3d 437 (6th Cir. 2017)

19, 21, 23

McCallum v. CSX Transp., Inc.,
149 F.R.D. 104 (M.D. N.C. 1993)

11

Riley v. St. Luke's Episcopal Hosp.,
252 F.3d 749 (5th Cir. 2001)

8

Sawyer v. Foster Wheeler, LLC,
860 F.3d 249 (4th Cir. 2017)

8

Thermtron Prods., Inc. v. Hermansdorfer,
423 U.S. 336 (1976)

14, 25

Things Remembered, Inc. v. Petrarca,
516 U.S. 124 (1995)

14

United States ex rel. Kelly v. Boeing Co.,
9 F.3d 743 (9th Cir. 1993)

8

United States ex rel. Mergent Servs. v.
Flaherty, 540 F.3d 89 (2d Cir. 2008)

8

United States ex rel. Stillwell v. Hughes
Helicopters, Inc.,
714 F.Supp. 1084 (C.D. Cal. 1989)

8

Vt. Agency of Natural Res. v. United States ex
rel. Stevens, 529 U.S. 765 (2000)

8

Yamaha Motor Corp., U.S.A. v. Calhoun,
516 U.S. 199 (1996)
Zeringue v. Crane Co.,
846 F.3d 785 (5th Cir. 2017)

passim
8

ix

TABLE OF AUTHORITIES—Continued
Page
CONSTITUTIONAL PROVISIONS
U.S. Const. Art. III

8, 12

STATUTES
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1292(b)

17, 21, 22, 25

28 U.S.C. § 1331
28 U.S.C. § 1332(d)

passim

28 U.S.C. § 1333

16, 17
16

28 U.S.C. § 1367

12

28 U.S.C. § 1441

passim

28 U.S.C. § 1442

passim

28 U.S.C. § 1442(a)(1)

7, 8, 13

28 U.S.C. § 1443
28 U.S.C. § 1446(b)(3)

2, 21, 22
7

28 U.S.C. § 1447(c)

14

28 U.S.C. § 1447(d)

passim

31 U.S.C. § 3729 et seq.

8, 9, 10

TABLE OF AUTHORITIES—Continued
Page
JUDICIAL RULES
Fed. R. App. P 35

25

Md. Dist. Ct. Rule 704

11

Middle Dist. Ct. of NC Rule 505

11

MLRPC 3.1

5, 6, 10, 11

OTHER AUTHORITIES
Edward H. Cooper,
15A Wright & Miller Federal Practice &
Procedure § 3914.11 (2014 rev.)

23

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Jason Edward Rheinstein, respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Fourth
Circuit (the "Fourth Circuit") in this case.2

OPINIONS BELOW
The opinion of the Fourth Circuit (App. la-3a) is
unreported. Atty. Griev. Comm'n. of Md. v. Rheinstein,
750 Fed. Appx. 225 (4th Cir. 2019). The Fourth Circuit's
order denying Petitioner's Petition for Rehearing or
Rehearing En Banc (App.31a) is also unreported. The
appeal was taken from unreported opinions of the
United States District Court for the District of Maryland (the "District Court") entered on September 20,
2017 (App.9a-21a) and September 22, 2017 (App.4a8a).3

JURISDICTION
The Fourth Circuit issued its panel decision on
February 5, 2019. Petitioner timely filed a petition
2 In the Fourth Circuit, this case was styled as Atty. Griev.
Comm'n. of Md. v. Jason Edward Rheinstein, No. 17-2127.
3 An earlier unreported opinion of the District Court, which is referenced in the September 20, 2017 opinion, appears at App.23a-30a.

2

for panel rehearing or rehearing en banc, and the
Fourth Circuit denied that petition on March 11, 2019.
The Chief Justice extended the time for filing this
petition to July 25, 2019. See No. 18A1285. This Court
has jurisdiction to review the decision of the Fourth
Circuit pursuant to 28 U.S.C. § 1254(1).

STATUTORY PROVISION INVOLVED
28 U.S.C. § 1447(d)
An order remanding a case to the State court from
which it was removed is not reviewable on appeal
or otherwise, except that an order remanding a
case to the State court from which it was removed
pursuant to section 1442 or 1443 of this title shall
be reviewable by appeal or otherwise.

INTRODUCTION
This petition raises an exceptionally important and
recurring question inuring to the jurisdiction of the
courts of appeal to review remand orders that Congress
has explicitly exempted from the general bar of 28
U.S.C. § 1447(d), namely remand orders in cases
removed pursuant to § 1442 or § 1443. The circuits have
split on the question as to whether, once an appeal of
a remand order has been specifically authorized by
§ 1447(d), the appellate court has jurisdiction to review
the entire order And all of the issues entailed in the decision to remand or whether the appellate court's juris-

3

diction is limited to a portion of the remand order
pertaining to specific legal issues.
The issue in this case arises because the Petitioner
removed this case from state court to federal court
and asserted two bases for removal: federal officer
jurisdiction pursuant to § 1442 and federal question
jurisdiction pursuant to § 1441/§ 1331. The federal
district court remanded the case, and the Petitioner
appealed to the Fourth Circuit. The Fourth Circuit
concluded that § 1442 did not support removal and
that its jurisdiction to review the remand order was
limited to that issue. As such, it dismissed the portion
of Petitioner's appeal pertaining to federal question
jurisdiction.
The Fourth Circuit's decision to dismiss the appeal
in part was erroneous and inconsistent with prior
decisions of this Court, the decisions of other circuits,
and the plain language and intent of § 1447(d), The
Fourth Circuit should have followed the approach of
the Seventh Circuit in Lu Junhong v. Boeing Co., 792
F.3d 805 (7th Cir. 2015) and determined that "once
an appeal of a remand "order" has been authorized
by statute, the appellate court may consider all of the
legal issues entailed in the decision to remand."4 The
Seventh Circuit's approach has been followed by two
4 Had the Fourth Circuit followed the approach of the Seventh
Circuit, it would have reviewed the entire remand order and all
the legal issues entailed in the decision to remand, including,
whether federal question jurisdiction existed in this case. Ultimately, this Court should vacate the Fourth Circuit's decision,
and remand the case to that Court for it to consider the entire
remand order, and all the legal issues entailed in the decision to
remand.

4

other circuits and it is entirely consistent with the
plain language and intent of § 1447(d) as well as
prior decisions of this Court. It is also the approach
that has been advocated by the leading treatise on
the subject of federal practice and procedure.
This case presents an ideal opportunity for the
Court to articulate a uniform interpretation of § 1447(d)
consistent with the plain language of that provision and
resolve the circuit split on an issue that will undoubtedly recur in the future. Certiorari is warranted.

41*STATEMENT OF THE CASE5
A. Overview of Case and the Discovery Responses
Leading to Petitioner's Removal of the Case
On February 17, 2016, Respondent initiated this
case with the filing of a complaint (the "Complaint")
in the Maryland state court alleging various violations
of the then-extant Maryland Lawyers' Rules of Pro5 Citations to the Appendix to the Petition are provided herein
in the form of (App.41-114) where "41-114" is the page number in the
Appendix. Citations to the Joint Appendix filed in the Fourth
Circuit (ECF No. 55) are provided herein in the form of (JA #/#/#)
whereIlillt" is the cited page number. Citations to the Opening
Brief of Appellant (ECF No. 83), which was filed by Petitioner
in the Court below, appear as "Open. Br. at lilt" where "lilt' is the
cited page number. Citations to the Response Brief of Appellee
(ECF No. 97), which was filed by Respondent in the Court below,
appear as "Resp. Br. at lilt" where ## is the cited page number.
Citations to the Reply Brief of Appellant (ECF No. 126), which
was filed by Petitioner in the Court below, appear as "Repl. Br.
at 444" where "lilt" is the cited page number.

5

fessional Conduct (MLRPC) in connection with litigation involving Petitioner's former clients and the
clients of an opposing counsel named Matthew .G.
Hjortsberg ("Hjortsberg"), who in March 2012, filed a
grievance with the Respondent against Petitioner.
(App.35a-61a).
During the state court proceedings, Petitioner
obtained discovery from Respondent in the form of
deposition testimony (App.70a-75a) and interrogatory
responses (App.62a-64a) conclusively establishing
the facts that, inter alia, Respondent is asserting (i) a
claim that Petitioner violated MLRPC 3.16 by developing and filing a qui tam case, in which two of
Hjortsberg's clients were defendants (hereinafter
"Qui Tam I")7, in the District Court on June 20, 2012
6 MLRPC 3.1 provides
A lawyer shall not bring or defend a proceeding, or
assert or controvert an issue therein, unless there is
a basis for doing so that is not frivolous, which
includes, for example, a good faith argument for an
extension, modification or reversal of existing law. A
lawyer may nevertheless so defend the proceeding as
to require that every element of the moving party's
case be established.
7 The interrogatory responses attached, and incorporated by
reference, a document called "Schedule A," which purported to
show each rule that was allegedly violated by each of the
respective actions of Petitioner that were enumerated in the
Complaint. See App.65a-69a. Schedule A was consistent with
the deposition testimony of Respondent's designee, and with
respect to the filing of Qui Tam I, revealed that Respondent
alleges Petitioner violated, inter alia, MLRPC 3.1. (App.70a74a). The deposition testimony and Schedule A revealed the exact
same thing with respect to the filing of the second qui tam case at
issue. (App.74a-75a).

6

(hereinafter "Operative Claim No. 1"); and (ii) a claim
that Respondent violated MLRPC 3.1 by developing and
filing a second qui tam case in which several of
Hjortsberg's clients were defendants (hereinafter "Qui
Tam II"),8 in the District Court on July 13, 2012
(hereinafter "Operative Claim No. 2").9 The fact that
the Respondent was asserting the Operative Claims
was significant because it necessarily meant that the
Respondent was placing the merits of the Qui Tam
Cases at issue in this case, since a claim that a case
is "frivolous" (and therefore that its filing violated
MLRPC 3.1) is inherently a claim about the merits of
the case.10

8 Hereinafter, Qui Tam I and Qui Tam II are sometimes collectively
referred to as the "Qui Tam Cases." The Qui Tam Cases both related
to real estate transactions involving FHA-insured mortgages that
were alleged to have been fraudulently procured and to have
resulted in losses to the Government. (See JA 346-61). The Qui
Tam Cases remained under seal for nearly 2.5 years after which
time the Government declined intervention in both cases in
November 2014. (App.58a, ¶ 66). However, with respect to the
transactions and scheme at issue in Qui Tam I, the Government
pursued and ultimately obtained guilty pleas from defendants
in three parallel criminal cases (the "QTI Parallel Criminal
Cases"). See Open. Br. at 15-16.
9 Hereinafter, Operative Claim No. 1 and Operative Claim No.
2 are sometimes collectively referred to as the "Operative Claims."
It is irrefutable that no court has ever found any filing by
Petitioner to be "frivolous" or sanctionable. (JA 17-18).
10 See Repl. Br. at 29 n. 20 (citing Atty. Griev. Comm'n. v.
Donnelly, 458 Md. 237, 314 (2018)). Petitioner sought to have
the matter tried in the federal court in order to, inter alia,
guarantee the availability of critical witnesses and information
necessary to resolve the Operative Claims. Repl. Br. at 21-22.

B.

Removal to the District Court

In accordance with 28 U.S.C. § 1446(b)(3), within
30 days after receiving the aforementioned discovery
from Respondent establishing the fact that Respondent
was asserting the Operative Claims,11 on September
1, 2017, Petitioner filed a timely notice of removal
and removed this case to the District Court pursuant
to 28 U.S.C. § 1442(a)(1),12 and in the alternative, 28
U.S.C. § 1441 (the general removal statute) and 28
U.S.C. § 1331. (JA 8-38).13
1. Asserted Basis for Removal Under § 1442(a)(1)
(Federal Officer Jurisdiction)
Petitioner asserted that, with respect to the
Operative Claims, he satisfied all three elements for
removal under the FORS. Open. Br. at 42-78; Repl.
Br. at 4-27.14

11 It is notable that, at the beginning of the case in May 2016,
Petitioner attempted removal based upon the face of the
Complaint itself, but the Respondent effectively denied the fact
it was asserting the Operative Claims, and the District Court
determined the fact could not be ascertained from the face of the
Complaint itself. See App.28a ("The ethical misconduct claims
asserted by the AGC Complaint are not based on the fact that
[Petitioner] was counsel in federal qui tam litigation").
12 Hereinafter, 28 U.S.C. § 1442(a)(1) is sometimes referred to
as the "Federal Officer Removal Statute" or the "FORS."
13 In Kolibash v. Committee on Legal Ethics of West Virginia
Bar, 872 F.2d 571, 575 (4th Cir. 1989), the Fourth Circuit held
that attorney disciplinary cases are subject to the removal statutes.
14 It is well-established that a private person seeking to remove
a case to federal court under the FORS must satisfy three elements
with respect to at least one of the claims in the case: (1) the

8

With respect to the "acting under" element, Petitioner asserted that a qui tam relator and his attorney
are a type of government contractor who acts under
the Executive in preparing, filing and prosecuting qui
tam litigation to assist the Government in recovering
monetary losses sustained through fraud. Open. Br.
at 47-55; Repl. Br. at 5-11.15
"acting under" element; (2) the "federal defense" element; and
(3) the "for or relating to" element. Sawyer v. Foster Wheeler,
LLC, 860 F.3d 249, 254 (4th Cir. 2017). "[R]emoval of the entire
case is appropriate so long as a single claim satisfies the [FORS]."
Zeringue v. Crane Co., 846 F.3d 785, 794 (5th Cir. 2017).
15 For the proposition that a qui tam relator is a type of government
contractor, Petitioner cited United States ex rel. Kelly v. Boeing
Co., 9 F.3d 743 (9th Cir. 1993) ("[T]he FCA's qui tam provisions
operate as an enforceable unilateral contract.") and Vt. Agency
of Natural Res. v. United States ex rel. Stevens, 529 U.S. 765,
773 (2000) (Holding relators have Article III standing in qui tam
cases because the FCA effects a partial contractual assignment of
the Government's damages claim). For the proposition that an
FCA relator acts under the Executive, Petitioner cited Brockovich
v. Cmty. Med. Ctrs., 2007 U.S. Dist. TEXTS 21355 at *16-17 (E.D.
Ca. 2007) ("Qui tam statutes generally have important procedural
safeguards, since they involve "the delegation of some sovereign
attributes" from the government to the private citizen . . . the
Executive Branch must retain control over a qui tam relator to
satisfy the Take Care Clause of the United States Constitution
. . ."); Riley v. St. Luke's Episcopal Hosp., 252 F.3d 749, 753 (5th
Cir. 2001) ("The Executive retains significant control over
litigation pursued under the FCA by a qui tam relator"); and
United States ex rel. Stillwell v. Hughes Helicopters, Inc., 714
F. Supp. 1084 (C.D. Cal. 1989) ("The relator is subject to a host,
of controls designed to permit the reassertion of executive
litigative authority"). For the proposition that an attorney for a
qui tam relator also functions as a type of government contractor
that effectively doubles as an attorney for the Government,
Petitioner cited, inter alia, United States ex rel. illergent Servs.
v. Flaherty, 540 F.3d 89 (2d Cir. 2008) (holding that a qui tam

9

With respect to the "federal defense" element,
Petitioner asserted he has numerous colorable federal
defenses to the Operative Claims. For example, as to
Operative Claim No. 1, Petitioner asserted that Qui
Tam I was not "frivolous," and thus, he has a defense
to Respondent's claim, hinging upon a question arising
under the federal False Claims Act, 31 U.S.C. § 3729
et seq. (the "FCA"). See Open. Br. at 56-64; Rept. Br.
at 15-27. He asserted that the plausibility of the defense
is supported by, inter alia, the results in the QTI
Parallel Criminal Cases, in one of which the Government obtained a monetary judgment for the losses it
sustained in 26 of the 27 transactions at issue in Qui
Tam I. /d.16 Petitioner asserted that the results in
the three QTI Parallel Criminal Cases established
that the methodology used to identify the transactions
at issue in Qui Tam I was objectively reasonable. Id.
With respect to Operative Claim No. 2, Petitioner
asserted that Qui Tam II was not "frivolous," and thus,
he also has a defense to that claim, hinging upon a
question arising under the FCA. Id at 64. He asserted
that the plausibility of the defense is supported by,
inter alia, the fact that the Government investigated
the transactions at issue in Qui Tam II for nearly 2.5
years before making its intervention decision and
that the same methodology used to identify the transactions at issue in Qui Tam I had also been used to
relator who is not an attorney cannot prosecute a qui tam case
because the relator's attorney effectively doubles as an attorney
for the Government and only a licensed attorney can represent
another in litigation).
16 It is notable that Respondent has never disputed any of the
facts underpinning any of Petitioner's alleged federal defenses.
See generally Resp. Br. at 23-45.

10

identify the transactions at issue in Qui Tarn II. Id.
at 64-65.
With respect to the "for or relating to" element,
Petitioner asserted it is clearly satisfied in this case
because, as to the Operative Claims, the asserted
official authority and the charged conduct are one in
the same. Open. Br. at 77-78; Repl. Br. at 27-28.
Namely, the development and filing of the Qui Tam
Cases in the District Court, something Petitioner and
his former client assert they were authorized to do by
the FCA. Id.
2. Asserted Basis for Removal Under § 1441
and § 1331 (Federal Question Jurisdiction)
Petitioner alternatively asserted a basis for
removal under § 1441 and § 1331, namely federal
question jurisdiction. First, citing Grable & Sons
Metal Products v. Darue Eng'g. & Mfg., 545 U.S. 308
(2005), Petitioner asserted that the Operative Claims
hinge upon a substantial question of federal law
because the issue of whether or not the Qui Tarn Cases
were "frivolous" (and hence whether MLRPC 3.1 was
violated in filing them) hinges purely upon resolution
of a question arising under the FCA. Open. Br. at 5758, 79; Repl. Br. at 29-30.
Petitioner further argued that, in the first instance,
the Operative Claims raise a question of federal law
for another reason, and that due to preemption, the
state code of professional conduct could not have been
violated, as to the Operative Claims, so long as the
District Court's own code of professional conduct was
not violated. Open. Br. at 72-75, 80; Repl. Br. at 2930. This is because neither MLRPC 3.1 nor any other

11

state rule of professional conduct directly applies to
any action (including the filing of the Qui Tam Cases)
taken by an attorney in the District Court. Id Rather,
Petitioner asserted, the District Court's own rules of
professional conduct apply and questions arising under
those rules are matters of federal law.17 In sum,
Petitioner argued, so long as the District Court's own
rules of professional conduct were not violated in the
Petitioner's filing of the Qui Tam Cases, the Operative
Claims necessarily fail because neither MLRPC 3.1
nor any other state rule could have been violated. As
such, Petitioner maintained, the Operative Claims
hinge upon a substantial question of federal law, and
the District Court had jurisdiction to hear those
claims pursuant to 28 U.S.C. § 1331. See Grable, 545

17 Petitioner cited McCallum v. CSX Transp., Inc., 149 F.R.D.
104, 108 (M.D. N.C. 1993) for the proposition that "[This Court
in In re Snyder, 472 U.S. 634, 645 n. 6 (1985)1 has made it clear
beyond peradventure that a federal court's decision to admit to
practice or discipline an attorney arises from an exercise of that
court's inherent power. Furthermore, the standards which arise
from exercise of that power must be found in federal law."
Petitioner asserted that, although the District Court, through
its Local Rule 704, has adopted the MLRPC, this does not
necessarily mean that the interpretation or application of any
given rule will necessarily be the same in the federal court as it
is in the state court. McCallum, 149 F.R.D. at 108 ("This Court
has adopted a code of conduct in its local rules. Local Rule 505
utilizes the Code of Professional Responsibility promulgated by
the Supreme Court of North Carolina. Notwithstanding, this
Court must look to federal law in order to interpret and apply
those rules. That is, even when a federal court utilizes state ethics
rules, it cannot abdicate to the state's view of what constitutes
professional conduct . . . ") (internal citation omitted).

12

U.S. at 308.18 Petitioner maintained that this case
forms one case or controversy as defined in Article III
of the United States Constitution, and therefore, that
the District Court had supplemental jurisdiction over
all of Respondent's remaining claims pursuant to 28
U.S.C. § 1367. Open. Br. at 80.
C. The Motion for Remand, the District Court's
Orders and the Fourth Circuit Appeal
On September 5, 2017, Respondent filed a motion
for remand arguing lack of federal jurisdiction. Over
Petitioner's opposition, the District Court granted the
motion for remand on September 20, 2017. (App.9a22a). The District Court rejected both of Petitioner's
asserted bases for federal jurisdiction and concluded
that it did not have jurisdiction to hear the case. Id.
Later, on September 20, 2017, Petitioner filed an
emergency motion for reconsideration. The District
Court denied the motion on September 22, 2017.
(App.4a-8a). On September 25, 2017, Petitioner filed a
timely notice of appeal seeking review of the District
Court's orders by the Fourth Circuit. (App.32a-34a).
The parties filed briefs in the Fourth Circuit, and
thereafter, on February 5, 2019, a panel of the Fourth
Circuit issued an unpublished per curiam opinion in
this matter. (App.la-3a). Without any discussion or

18 Put another way, Petitioner asserted that he was entitled, in
the first instance, to have any claims regarding his conduct in
the filing of the Qui Tam Cases judged by the District Court.
See Open. Br. at 80 (citing Cord v. Smith, 338 F.2d 516, 524
(9th Cir. 1964) ("When an attorney appears before a federal
court, he is acting as an officer of that court, and it is that court
which must judge his conduct")).

13

analysis, the panel concluded that the "[Petitioner]
failed to meet his burden of establishing that" he
satisfied the three elements required for a private
person to remove an action under the FORS. (App.2a).
Based upon this conclusion, the panel affirmed the
District Court's decision with respect to the portion
thereof pertaining to the FORS. Id. Based upon the
conclusion that § 1447(d) barred it from considering
the Petitioner's asserted alternative basis for removal
federal question jurisdiction), the Fourth Court
dismissed the remainder of Petitioner's appeal without
addressing that issue. (App.2a-3a).19 On February 19,
2019, Petitioner filed a Petition for Rehearing and
Rehearing En Banc, which the Fourth Circuit denied
on March 11, 2019. (App.31a).
Petitioner contends that the Fourth Circuit erred
in dismissing his appeal in part. Petitioner contends
that once review of a remand order has been authorized
by 28 U.S.C. § 1447(d), the appellate court has jurisdiction to review the entire remand order and all the
legal issues entailed in the decision to remand. As
such, Petitioner contends that, rather than limiting its
review to any issues surrounding the applicability of
the FORS, the Fourth Circuit should have considered
the entirety of Petitioner's appeal, and thus, it should
have addressed Petitioner's asserted alternative basis
for removal
federal question jurisdiction) and
any other issues entailed in the decision to remand.

19 It is highly notable that even Respondent did not argue that
the Fourth Circuit lacked jurisdiction to hear any portion of Petitioner's appeal. See generally Resp. Br. at 23-45.

14

REASONS FOR GRANTING THE WRIT
I.

THERE IS A CLEAR SPLIT, AMONG THE CIRCUITS TO
HAVE CONSIDERED THE ISSUE, AS TO WHETHER AN
APPELLATE COURT MAY REVIEW THE ENTIRE
REMAND ORDER (AND ALL THE LEGAL ISSUES
ENTAILED THEREIN) IN CASES WHERE REVIEW IS
EXPLICITLY AUTHORIZED BY 28 U.S.C. § 1447(d)

Generally, "Mlle policy of Congress opposes
interruptions of the litigation of the merits of a
removed cause by prolonged litigation of questions of
jurisdiction of the district court to which the case is
removed." Kircher v. Putnam Funds Trust, 547 U.S.
633, 640 (2006). As such, "[nor over a century now,
statutes have accordingly limited the power of federal
appellate courts to review orders remanding cases
removed by defendants from state to federal court."
Id. (citing Thermtron Prods., Inc. v. Hermansdorfer,
423 U.S. 336, 346-48 (1976)). The current incarnation
of the statute limiting appellate review of remand
orders is 28 U.S.C. § 1447(d). Kircher, 547 U.S. at
640. 20 The bar of § 1447(d) has been held to apply
equally to cases removed under the general removal
statute and to those removed under other provisions.
Id. (citing Things Remembered, Inc. v. Petrarca, 516
U.S. 124, 128 (1995)).

20 In Thermtron Prods., this Court held that § 1447(d)'s bar on

appellate review of remand orders was limited to remands based
on the grounds specified in § 1447(c). Those grounds are a defect
in removal procedure or lack of subject matter jurisdiction.

15

Notwithstanding its general policy, Congress has
at times, exempted certain remand "orders" from
§ 1447(d)'s bar. Kircher, 547 U.S. at 641 n. 8. Indeed,
as the plain language of § 1447(d) reveals, an example
of remand "orders" explicitly exempted from the bar
to appellate review are "orders" in cases (such as
this) removed pursuant to 28 U.S.C. § 1442. Decatur
Hosp. Auth. v. Aetna Health, Inc., 854 F.3d 292, 295
(5th Cir. 2017).
Although § 1447(d) explicitly authorizes appellate
review of remand "orders" in cases removed pursuant
to § 1442, there is controversy over the scope of
review that is permissible in such cases. Is the appellate
court's review limited to just the portion of the
remand order pertaining to § 1442 (and/or other legal
issues for which there exists a specific exemption
from the § 1447(d) bar) or may the appellate court
review the entire remand order and all the legal issues
entailed in the decision to remand?
There is a clear split among the circuits regarding
this question. Prior to the Fourth Circuit's decision in
the case sub judice, over the past several years, four
circuits had addressed the question.
In Jacks v. Meridian Res. Co., LLC, 701 F.3d 1224
(8th Cir. 2012), the Eighth Circuit addressed the
issue. In that case, the plaintiff, Shannon Jacks, on
behalf of herself and others similarly situated, sued
the defendants in a Missouri state court alleging state
law violations in connection with health insurance
plans the defendants administered. Id. at 1228. Thereafter, the defendants removed the action to federal
court asserting three bases for removal: (1) federal
officer jurisdiction pursuant to § 1442; (2) the Class

16

Action Fairness Act (CAFA); and (3) federal question
jurisdiction pursuant to 28 U.S.C. § 1441 and § 1331.
Id. The district court granted a motion by Ms. Jacks
to remand the case, and the defendants appealed to
the Eighth Circuit, which was confronted with the
question regarding the permissible scope of appellate
review for a remand order where the review was
specifically authorized by § 1447(d). Id. at 1228-29.
In its opinion, the Court noted that neither side had
cited authority or presented a coherent argument
regarding the question. Id. Nonetheless, ultimately,
the Eighth Circuit held that even when § 1447(d) or
another statute authorizes review of a remand order,
only the issue behind the exception to § 1447(d) is
reviewable. Id Based upon that determination, the
Court concluded that it had jurisdiction to review
issues regarding two of the three asserted bases of
removal: § 1442 and the CAFA. Id. At the same time,
the Court concluded that it lacked jurisdiction to
review any issues concerning the defendants third
basis of removal: federal question jurisdiction. Id.
A few years after Jacks, the Seventh Circuit was
confronted with the same question in Lu Junhong v.
Boeing Co., 792 F.3d 805 (7th Cir. 2015). In that
case, the plaintiffs, passengers on an Asiana Airlines
flight that crashed into a seawall upon attempting to
land at SFO International Airport in 2013, filed
lawsuits against Boeing in the Illinois state courts
contending that the design of various aircraft systems
had contributed to the crash. Id at 807. Boeing removed
the suits to federal court and asserted two bases of
removal: (1) federal officer jurisdiction pursuant to
§ 1442; and admiralty jurisdiction pursuant to § 1441
and § 1333. Id. at 807-08. The U.S. District Court for

17

the Northern District of Illinois remanded the suits
for lack of subject matter jurisdiction, and Boeing
appealed to the Seventh Circuit. Id. at 808. After
reviewing Boeing's argument with regard to § 1442,
the Seventh Circuit concluded, as had the lower court,
that § 1442 did not support removal. Id. at 810. The
plaintiffs took the position that, upon reaching the
conclusion that § 1442 did not apply, the appeal was
done on the purported basis that § 1447(d)'s bar to
appellate review precluded the Seventh Circuit from
considering Boeing's asserted alternative basis for
removal (admiralty jurisdiction). Id. at 811. Citing
this Court's decision in Yamaha Motor Coip., U.S.A.
v. Calhoun, 516 U.S. 199, 205 (1996), Boeing argued
that once an appeal of an order has been explicitly
authorized by statute, the appellate court reviews
the whole order and not just particular issues or
reasons. /d.21 Applying Yamaha Motor and its own
earlier precedent in Brill v. Countrywide Home Loans,
Inc, 427 F.3d 446 (7th Cir. 2005),22 the Seventh Circuit
agreed with Boeing and noted in relevant part:

21 In Yamaha Motor, this Court addressed the permissible scope
of review for interlocutory orders certified for appeal pursuant
to 28 U.S.C. § 1292(b). 792 F.3d at 811. The statute permits the
appellate court to review an interlocutory order if the district
court certifies that particular issues meet the statutory requirements. This Court held that once an appeal of such an interlocutory order is accepted, the appellate court reviews the entire
"order" rather than just particular issues. Id.
22 In Brill, the Seventh Circuit had held that once an appeal of
a remand order was authorized by CAFA, it could review the
entire remand order and all the legal issues entailed in the
decision to remand, including federal question jurisdiction. 792
F.3d at 811. After determining that CAFA did not support removal,

18

Section 1447(d) itself authorizes review of the
remand order, because the case was removed
(in part) pursuant to § 1442 . . . [O]nce an
appeal of a remand "order" has been authorized by statute, the court of appeals may
consider all of the legal issues entailed in
the decision to remand.
. . . [A]nother court of appeals has come to a
contrary conclusion. Jacks v. Meridian
Resource Co., 701 F.3d 1224, 1229 (8th Cir.
2012), holds that, even when a statute authorizes review of a remand order, only the issue
behind the exception to § 1447(d) is reviewable; consideration of other issues is blocked
by § 1447(d), the court stated. For this proposition, it cited—nothing. Jacks did not discuss
the significance of the statutory reference to
review of an "order." It did not mention
Yamaha Motor. It did not mention Brill . . .
[*** ]
The [Supreme] Court remarked in Kircher,
[supra,] 547 U.S. at 641 n.8, that Congress
has on occasion made the rule of § 1447(d)
inapplicable to particular "orders"--and for
this the Court cited, among other statutes,
§ 1447(d) itself. We take both Congress and
Kircher at their word in saying that, if appellate review of an "order" has been authorized,
that means review of the "order." Not par-

the Court went on to conclude that removal had been proper based
upon federal question jurisdiction.

19

titular reasons for an order, but the order
itself.
[***[
If we go beyond the text of § 1447(d) to the
reasons that led to its enactment, we reach
the same conclusion. The Supreme Court
has said that § 1447(d) was enacted to prevent appellate delay in determining where
litigation will occur. Since the suit must be
litigated somewhere, it is usually best to get
on with the main event. But once Congress
has authorized appellate review of a remand
order—as it has authorized review of suits
removed on the authority of § 1442—a court
of appeals has been authorized to take the
time necessary to determine the right forum.
The marginal delay from adding an extra
issue to a case where the time for briefing,
argument, and decision has already been
accepted is likely to be small.
Lu Junhong, 792 F.3d at 811-13 (emphasis added;
internal citations omitted).23
Citing Lu Junhong in 2017, the Sixth Circuit
followed suit in Mays v. City of Flint, 871 F.3d 437,
442 (6th Cir. 2017) and concluded that once it had
been authorized by § 1447(d) to review a remand order,
23 Interestingly, after deciding that it had jurisdiction to review
the entirety of the remand order, the Seventh Circuit in Lu
Junhong went on to review Boeing's second asserted basis of
removal (admiralty jurisdiction). Id. at 813-18. Upon completing
that review, the Court decided that admiralty jurisdiction
existed; and therefore, that remand had been improper. Id.

20

it could review the whole order. The Court noted in
relevant part, "This timely appeal of the remand order
is authorized by 28 U.S.C. § 1447(d) because the
[defendants] removed the case under 28 U.S.C. § 1442.
Our jurisdiction to review the remand order also
encompasses review of the district court's decision on
the alternative ground for removal under 28 U.S.C.
§ 1441" (emphasis added).
Also citing Lu Junhongin 2017, the Fifth Circuit
followed suit in Decatur Hospital, supra, 854 F.3d at
295, and came to the same conclusion regarding its
ability to review the entirety of a remand order that
it had been authorized to review by § 1447(d). The
Court noted in relevant part, "Like the Seventh
Circuit, we take both Congress and Kircher[, supra,
547 U.S. at 641 n.8] at their word in saying that, if
appellate review of an 'order' has been authorized,
that means review of the 'order.' Not particular reasons
for an order, but the order itself' (emphasis added;
internal quotation marks and brackets omitted).
Thereafter, as noted supra, in its February 2019
opinion in this case, the Fourth Circuit concluded, as
had the Eighth Circuit in Jacks, that its jurisdiction
to review the remand order extended only to the portion
of the order addressing the issue behind the exception
to § 1447(d). (App.2a-3a). For that reason, upon deciding
that § 1442 did not support removal of this case, the
Court did not address the secondary basis of removal
asserted by Petitioner (i.e., federal question jurisdiction). Id. The Fourth Circuit's decision further exacerbated the already-existing and clear circuit split

21

and presents a strong reason for this Court to grant
certiorari and decide the question presented.24
II.

FOR THE REASONS STATED BY THE SEVENTH CIRCUIT
IN LU JUNHONG, THAT DECISION AND THE
DECISIONS OF THE SIXTH AND FIFTH CIRCUITS IN
MA YS AND DECATUR HOSPITAL, RESPECTIVELY,
WERE CORRECT WHEREAS THE DECISIONS OF THE
EIGHTH CIRCUIT IN JACKS AND THE FOURTH
CIRCUIT IN THIS CASE WERE ERRONEOUS

Lu Junhong and the decisions that followed it,
were correct, as they were fully consistent with this
Court's precedents as well as the purpose and plain
language of § 1447(d). As the Seventh Circuit explained
in Lu Junhong and as the Fifth Circuit reiterated in
Decatur Hospital, this Court's decision in Kircher
recognizes that Congress intended to exempt some
remand "orders" from § 1447(d)'s bar. 547 U.S. at 641
n.8. The plain language of § 1447(d) clearly contemplates that the exemption is not for particular
reasons or issues associated with a remand "order,"
but rather the remand "order" itself in any cases
removed pursuant to § 1442 or § 1443. This language
suggests that Congress intended the appellate courts
be able to review the entirety of the "order" and any
reasons or issues therein. Interpreting § 1447(d) in
this manner is entirely consistent with the manner
in which this Court interpreted 28 U.S.C. § 1292(b)
in Yamaha Motor. Namely, permitting appellate review
24 It should be noted that, as of this writing, other than the Fourth,
Fifth, Sixth, Seventh, and Eighth Circuits, the Petitioner is not
aware of any other circuits to have addressed the question
presented in this case.

22

of the entire "order" rather than just particular issues.
As the Seventh Circuit noted in Lu Junhong, there is
no reason to treat orders subject to appellate review,
pursuant to § 1447(d), any differently from orders
subject to appellate review, pursuant to § 1292(b).
Furthermore, it would not advance the purpose
of § 1447(d) to interpret the statute as only permitting review of particular reasons or issues in
remand "orders" where review has been explicitly
authorized. The purpose of the statute, as was aptly
articulated by the Seventh Circuit in Lu Junhong, is
to prevent delay in determining the forum in which
litigation will occur. 792 F.3d at 813. Once appellate
review of a remand order has been authorized by
Congress, however, limiting the scope of review of
such "order" would not significantly prevent any delay
because the additional time required to decide an extra
issue in a case already pending before the appellate
court would be marginal. Id. Indeed, the leading
treatise on Federal Practice & Procedure recognizes
this fact and supports the approach taken by the
courts in Lu Junhong and the cases that followed it:
Review should be extended to all possible
grounds for removal underlying the order.
Once an appeal is taken there is very little
to be gained by limiting review; the only plausible concern is that an expanded scope of
review will encourage defendants to rely on
strained arguments under § 1442 or § 1443 in
an effort to support appeal on other grounds.
Sufficient sanctions are available to deter
frivolous removal arguments that this fear

23

should be put aside against the sorry possibility that experience will give it color.
Lu Junhong, 792 F.3d at 812 (quoting Edward H.
Cooper, 15A Wright & Miller Federal Practice & Procedure § 3914.11 (2014 rev.)) (emphasis added; internal
brackets and ellipses omitted).
In contrast to the approach taken by the courts
in Lu Junhong, Mays, and Decatur Hosp., there do
not exist any compelling reasons that particularly
support the approach taken by the Eighth Circuit in
Jacks and the Fourth Circuit in this case—that even
when § 1447(d) authorizes review of a remand order,
only the issue behind the exception to § 1447(d) is
reviewable. See 792 F.3d at 812. Both circuits failed
to discuss the significance of § 1447(d)'s references to
review of an "order." Id. They further did not mention
Kircher, Yamaha Motor or any other relevant authorities such as Brill. Id.
Perhaps even more importantly, the decisions in
Jacks and this case are not consistent with the plain
language or purpose of § 1447(d) and they do not
comport with this Court's decisions in Kircher and
Yamaha Motor. They further do not comport with the
approach advocated by the leading treatise on the
subject. For these reasons, the approach taken by the
Eighth Circuit in Jacks and the Fourth Circuit in
this case is simply wrong. Thus, this Court should
grant certiorari to correct the Fourth Circuit's error
and hold that the right approach is the one taken by
the courts in Lu Junhong, Mays, and Decatur Hospital.

24

III. THIS CASE PRESENTS AN IDEAL VEHICLE FOR
RESOLVING A QUESTION OF EXCEPTIONAL IMPORTANCE THAT WILL RECUR IN THE FUTURE; A UNIFORM INTERPRETATION OF § 1..447(d) IS NECESSARY
TO ENSURE THAT PARTIES ARE NOT TREATED
DIFFERENTLY DEPENDING UPON WHERE THE CASE
IS LITIGATED

This case presents a clean vehicle for this Court
to decide the question presented and articulate a
uniform interpretation of § 1447(d) that is consistent
with the plain language of the statute. The material
facts are all undisputed: (1) Petitioner removed the
case from a state court to federal court; (2) Petitioner
asserted two bases for removal: federal officer jurisdiction and federal question jurisdiction; (3) The District Court granted a motion by Respondent and
remanded the case; (4) Petitioner appealed the remand
order to the Fourth Circuit; (5) The Fourth Circuit,
after opining that federal officer jurisdiction did not
support removal of the case, dismissed the remainder
of Petitioner's appeal on the purported basis that
§ 1447(d) deprived it of jurisdiction to consider the
remaining issues in the remand order; and (6) The
majority of circuits to have considered the issue
before this case had concluded that once § 1447(d)
authorizes appellate review of a remand order, the
appellate court reviews the entire "order" and not just
particular issues or reasons. No other issues cloud
this Court's review of the case.
Because the question presented is the subject of
a circuit split and because it inures to the jurisdiction
of the courts of appeal to review remand orders specifically exempted from § 1447(d)'s bar on appellate

25

review, the question is one of exceptional importance.
See e.g., Fed. R. App. P. 35(b)(1)(B). Since parties
removing cases frequently cite more than one basis
of removal (e.g., § 1442 and § 1441/§ 1331), the issue
presented by this case will undoubtedly recur in
the future. Thus, it is clearly in the public interest
for this Court to grant review of this case. See e.g.,
Comments to Fed. R. App. P. 35 ("Intercircuit conflicts create problems. When the circuits construe the
same federal law differently, parties' rights and
duties depend upon where a case is litigated . . . ").
In sum, just as this Court took the opportunity
in Yamaha Motors to articulate a uniform interpretation of § 1292(b) consistent with the statute's
plain language,25 it should take the opportunity in
this case to articulate a uniform interpretation of
§ 1447(d) consistent with the plain language of that
statute.26

25 516 U.S. at 204-05.
26 To the extent that this case presents the Court with an
opportunity to articulate a uniform interpretation of § 1447(d)
consistent with the plain language of the statute, it presents the
Court with the chance to revisit and/or further clarify its decision
in Thermtron Prods., supra, 423 U.S. at 336, a case that many
people believe was decided incorrectly because the Court, in that
case, adopted an atextual reading of the statute. See Kakarala
v. Wells Fargo Bank, NA., 136 S.Ct. 1153 (2016) (Thomas, J.,
dissenting from the denial of certiorari).

26

CONCLUSION
The Petition for Writ of Certiorari should be
GRANTED.

Respectfully submitted,
JASON EDWARD RHEINSTEIN
PETITIONER PRO SE
P.O. BOx 1369
SEVERNA PARK, MD 21146
(410) 340-8396
JASON@JER-CONSULTING. COM
JULY 25, 2019

